                      Limited Official Use




       Security Controls for the Appeals Centralized
          Database System Could Be Improved

                          March 2005

              Reference Number: 2005-20-069




The Treasury Inspector General for Tax Administration (TIGTA) has
designated this audit report as Limited Official Use (LOU) pursuant
to Chapter III, Section 2 of the Treasury Security Manual (TD P 71-10)
entitled, “Limited Official Use Information and Other Legends.”
Because this document has been designated LOU, it may only be
made available to those officials that have a need to know the
information contained within this report in the performance of their
official duties. This report must be safeguarded and protected from
unauthorized disclosure; therefore, all requests for disclosure of this
report must be referred to the Disclosure Section within the TIGTA’s
Office of Chief Counsel.




                      Limited Official Use
                             Limited Official Use




                                                                   Appendix II


                      Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems
Programs)
Stephen Mullins, Director
Gerald Horn, Audit Manager
Michelle Griffin, Senior Auditor
Bret Hunter, Senior Auditor
William Lessa, Senior Auditor
Abraham Millado, Senior Auditor




                             Limited Official Use
